OFFICE OF INSPECTOR GENERAL

FOLLOW-UP AUDIT OF
USAID/SOUTH SUDAN’S ROAD
INFRASTRUCTURE ACTIVITIES
AUDIT REPORT NO. 4-668-12-010-P
JUNE 13, 2012




PRETORIA, SOUTH AFRICA
Office of Inspector General

June 13, 2012

MEMORANDUM

TO:                  USAID/South Sudan Mission Director, Kevin Mullally

FROM:                Regional Inspector General/Pretoria, Christine M. Byrne /s/

SUBJECT:             Follow-Up Audit of USAID/South Sudan’s Road Infrastructure Activities
                     (Report Number 4-668-12-010-P)

This memorandum transmits our final report on the subject audit. We have considered carefully
your comments on the draft report and have included them in their entirety in Appendix II.

The report includes 11 recommendations to strengthen USAID/South Sudan’s road
infrastructure activities. With the information you provided in your response to the draft report
and in subsequent communications, we determined that management decisions have been
reached on Recommendations 3, 5, 6, 7, 8, 9, 10, and 11, and final action has been taken on
Recommendations 5, 6, and 10. Recommendations 1 and 4 remain open pending the
contractor officer’s determination of excess amounts owed USAID and a target date of
collection. Recommendation 2 remains open pending the mission’s setting a target date for
implementing a policy requiring an independent contracting officer review of task orders. Please
provide us a written response within 30 days on actions planned or taken to implement
Recommendations 1, 2, and 4. Please also provide the Office of Audit Performance and
Compliance Division with the necessary documentation to achieve final action on
Recommendations 3, 7, 8, 9, and 11. Recommendations 5, 6, and 10 are closed upon report
issuance.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5, 0181
Pretoria, South Africa
www.usaid.gov
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 5

     Juba-Nimule Road Was Over Budget and Behind Schedule ................................................. 5

     Task Order Between USAID and Louis Berger Group Did Not Define Deliverables ............... 8

     Louis Berger Group Did Not Communicate Appropriately With USAID .................................. 9

     USAID Did Not Complete Required Contractor Evaluations ................................................ 12

     Government of South Sudan Is Unlikely to Maintain the Juba-Nimule Road ........................ 13

     Other Factors Could Offset Road’s Benefits ........................................................................ 15

Evaluation of Management Comments.................................................................................. 17

Appendix I—Scope and Methodology ................................................................................... 19

Appendix II—Management Comments .................................................................................. 21

Appendix III—Map of the Juba-Nimule Road Showing Sections, Camps, and Bridges ..... 28




Abbreviations

The following abbreviations appear in this report:

ANT             ANT Insaat Maden Sanayi Limited
COTR            contracting officer’s technical representative
Eyat            Eyat Roads and Bridges
FAR             Federal Acquisition Regulation
FY              fiscal year
Gulsan          Gulsan Insaat Sanayi Turizm
LBG             Louis Berger Group Inc.
PCL             Progressive Constructions Limited
RIG             Regional Inspector General
SUMMARY OF RESULTS
One of USAID’s biggest projects in South Sudan has been paving the 192-kilometer road
between the capital of Juba and Nimule to the south on the Ugandan border. As of November
2011, the completed portion of this vital commercial artery was the only paved inter-city road in
South Sudan.

The Juba-Numule road is part of USAID’s Sudan Infrastructure Services Project, which the
Louis Berger Group Inc. (LBG) carried out through a 5-year, $700 million indefinite quantity
contract that ended in September 2011.1 On August 27, 2007, USAID/Sudan2 started the road
by signing a $250 million cost-plus-fixed fee task order.3 Initially the mission planned to work on
other roads and bridges; but, as of August 2011, the Juba-Nimule road made up 98 percent of
the task order’s total budgeted cost of $228.3 million.

Because LBG officials decided that the road project was too large for one subcontractor to finish
on time, they separated it into three sections and put each one up for bid. In addition, the
officials thought that if one subcontractor failed to perform, they could reallocate work to another
one. The first section is 55 kilometers long and starts at the Ugandan border in Nimule; Section
2 is 70 kilometers long; and Section 3 is 67 kilometers long and ends at the Nile River Bridge
leading into Juba. The map included as Appendix III shows the three sections in detail.

The Regional Inspector General in Pretoria (RIG/Pretoria) issued the initial audit of the mission’s
road infrastructure activities (“Audit of USAID/Sudan’s Road Infrastructure Activities,” Report
No. 4-650-09-009-P) on September 28, 2009. The audit found that, while the Juba-Nimule road
was likely to achieve its main goals, the project was over budget and behind schedule. At that
time, the road was 8 months behind and had an estimated completion date of November 2010.
Moreover, the cost of the road had more than doubled to $163.8 million. As of the end of audit
fieldwork, LBG had completed bridge repairs, demining, and graded the road site, but the
subcontractors had not started paving. Through these subcontractors, LBG still had to:

    Place culverts and other catchments, clear brush, and establish embankments.
    Lay the subbase and base layers of aggregate.
    Seal the road with two coats of bitumen and gravel, as shown in the photo on page 2.
    Paint the lines, erect signs, and place guardrails where necessary.



1
   An indefinite quantity contract gives USAID the ability to get an indefinite quantity of supplies or
services from a contractor during a period of time for a set price. Each time the Agency needs the
supplies or services, it issues a task order to the contractor.
2
  Upon the formal independence of South Sudan on July 9, 2011, the USAID office in Juba was
designated USAID/South Sudan, while the USAID mission in Khartoum remained USAID/Sudan.
Because the Juba-Nimule road predates formal independence and the USAID officials involved in the
project have been based in Juba, this audit refers to USAID/South Sudan even when the Juba office was
part of USAID/Sudan.
3
  A cost-plus-fixed-fee contract pays the contractor a negotiated fee that is fixed at the inception of the
contract. The fixed fee does not vary with actual cost, but may be adjusted because of changes to the
work performed under the contract. This task order included a $9.6 million fixed fee.



                                                                                                         1
 A truck spreads a layer of gravel on the Juba-Nimule road, a major conduit for commerce in
 South Sudan. (Photo by RIG/Pretoria, November 4, 2011)

RIG/Pretoria conducted this follow-up audit at USAID/South Sudan to determine (1) whether the
Juba-Nimule road was on track to be completed on schedule and within budget and (2) whether
USAID/South Sudan built sustainability into the mission’s road infrastructure activities.

The audit determined that the road was neither on track nor within the budget that was set as of
the end of the last audit (page 5). The audit also determined that although USAID/South Sudan
built sustainability into the project, it is unlikely that the benefits from the road will be sustained
because the Government of South Sudan is unlikely to maintain the road physically (page 13)
and because other factors could offset those benefits (page 15).

Despite these findings, the audit team did see that the sections of road that have been
completed were well built, and the increase in traffic indicated that the road has linked South
Sudan to Uganda and other neighbors to the south successfully.

The audit also identified the following findings:

   The task order between USAID and LBG did not define deliverables (page 8), as required by
   the Federal Acquisition Regulation (FAR). This oversight may have cost U.S. taxpayers
   $6.5 million.

   LBG did not communicate appropriately with USAID (page 9). LBG did not communicate
   with the contracting officer before or during negotiations with a subcontractor, which may
   have a direct effect on the price of the Juba-Nimule road. Additionally, USAID/South Sudan
   officials said LBG had not notified them about claims from subcontractors that could affect


                                                                                                     2
    USAID’s financial liability. As a result, LBG was claiming up to $5.9 million more than was
    allowable following negotiations with a subcontractor, and USAID/South Sudan was
    unaware of the liability related to subcontractor claims.

    USAID did not complete required contractor evaluations (page 12). Although USAID should
    have completed several evaluations, LBG officials said they had received only one, and it
    was not for the task order related to the Juba-Nimule road. U.S. Government officials
    making decisions about future procurements will not have all of the information about LBG’s
    prior performance without completed contractor evaluations.

To resolve these problems, this report recommends that USAID/South Sudan:

1. Determine whether the fixed fee in Task Order Two4 of the Sudan Infrastructure Services
   Project can be reduced based on the reduction in the scope of work, document this
   determination, and recover the excess amount from LBG (page 8).

2. Develop and implement a policy to have a second-level review by a contracting official of
   task orders worth more than a certain dollar amount to confirm they are structured to
   encourage contractors to fulfill their end of the agreement on time and within budget (page
   9).

3. Develop and implement a plan to provide consistent contracting support for agreements
   managed by the mission (page 11).

4. Determine the final amount for the contract between Eyat Roads and Bridges (Eyat) and
   LBG, and recover from LBG any excess due USAID (page 11).

5. Arrange for staff members to represent USAID’s interest during any negotiation, arbitration,
   or litigation (page 12).

6. Define and document the roles and responsibilities of officials who oversee the LBG
   contract, as well as the specific information that LBG needs to share with USAID, and
   provide this information to LBG (page 12).

7. Prepare all overdue contractor evaluations for LBG under the Sudan Infrastructure Services
   Project (page 13).

8. Designate an official in writing to confirm that contractor performance evaluations are
   completed as required (page 13).

9. Train all mission personnel on their roles and responsibilities related to contractor
   performance evaluations (page 13).

10. Identify and document the most significant threats to the maintenance of the Juba-Nimule
    road and engage the Government of South Sudan to address these threats (page 15).



4
  Task Order Two was the task order signed on August 27, 2007 that included the Juba-Nimule road, as
discussed on page 1 of this report.


                                                                                                  3
11. Include in its next portfolio review a discussion on whether any of its planned activities could
    or should address the obstacles that prevent the Juba-Nimule road from achieving its full
    potential (page 16).

Detailed findings appear in the following section, and the scope and methodology appear in
Appendix I. Management comments are in Appendix II, and our evaluation of management
comments are on page 17.




                                                                                                  4
AUDIT FINDINGS
Juba-Nimule Road Was Over
Budget and Behind Schedule
The September 2009 audit noted that the Juba-Nimule road was projected to cost $163.8 million
and to be completed in November 2010.

Since then, the estimated cost has grown to $223.2 million, and the estimated completion date
is now November 2012. Most of these budget overages and delays arose from the need to
replace both road construction subcontractors, Progressive Constructions Limited (PCL) and
Eyat. In addition, the replacement subcontractors have caused further delays. Table 1 shows
estimated cost increases since the previous audit.

          Table 1. Estimated Cost Increases for the Juba-Nimule Road (Audited)
                               Item                             Amount ($ million)
            Estimated cost in September 2009                             163.8
            PCL replacement                                                34.1
            Eyat replacement                                               17.4
            Other increases*                                                7.9
            Estimated cost in November 2011                                223.2         .
           * Other costs were incurred by additional demining, hiring extra security, and
           building another bridge. The September 2009 estimate included only 65.5
           percent of the fixed fee because the estimated cost of the road was 65.5 percent
           of the task order ceiling. Because the Juba-Nimule road forms 98 percent of the
           total estimate for the task order, the November 2011 estimate includes 98
           percent of the fixed fee, an increase of $3.1 million.

Termination of PCL Subcontract. On May 1, 2009, LBG selected PCL, an Indian company, to
construct Sections 1 and 2 of the road because PCL was the lowest bidder. However, it failed
to meet multiple contract requirements and, most significantly, did not get its staff or equipment
to the site on schedule; a senior LBG official recalled seeing only a few pieces of equipment and
a few employees during a site visit in July 2009. After numerous warnings, LBG terminated the
PCL contracts on November 4, 2009.

Before then, however, USAID officials were aware of PCL’s poor performance and appropriately
communicated their concerns to LBG. According to LBG officials, they were taking steps to
address PCL’s substandard performance, including meetings and formal notices regarding the
rate of progress. In August 2009, an LBG official noted, “The progressive nature of our
communications with PCL is representative of our growing concern that they have neither the
financial resources nor the institutional capacity to organize the appropriate corporate resources
to meet their contracted obligations.”

Rather than re-advertise the subcontracts, LBG solicited bids from specific companies because
it decided that advertising would delay the project further and because it had identified capable
companies in the initial competition.


                                                                                                5
The two bidders selected to replace PCL were two Turkish companies, ANT Insaat Maden
Sanayi Limited (ANT) and Gulsan Insaat Sanayi Turizm (Gulsan). Despite having the lowest
bids, their costs were still substantially higher than PCL’s subcontract amounts. Consequently,
the additional cost for both sections was $34.1 million, including extra costs for building camps
for staff and supplies and additional costs for LBG to oversee the work. However, the cost
increase was supported by the fact that the lowest bidders during the previous solicitation (Eyat
and PCL) had failed to perform, and the next highest bidders were closer to the prices of ANT
and Gulsan.

LBG was trying to recoup damages from PCL for nonperformance, and, at the time of audit
fieldwork, was preparing for arbitration. If LBG is able to recover performance security and
other damages, such amounts could offset the cost of replacing PCL. While LBG may seek
damages equal to the amount of losses incurred as a result of PCL’s termination and the
resulting re-procurement costs, damages actually awarded by the arbitration panel may differ.
Additionally, the arbitration process is incurring legal fees.

Termination of Subcontract With Eyat. Eyat, a Sudanese company headquartered in
Khartoum, was responsible for Section 3 of the Juba-Nimule road. Although it was more
effective than PCL, insufficient or incapable management led to missed deadlines, and much of
the work that was completed needed to be redone. For example, USAID’s engineering
consultant explained that most construction companies would lay out only a few hundred meters
of material at a time to minimize the work lost if it rained. However, Eyat laid more than a
kilometer of material at a time and subsequently lost time when it rained. Between the money
Eyat received for expenses and the charges incurred by hiring a new subcontractor, the cost of
Section 3 rose by about $17.4 million.

LBG officials said Eyat was not meeting its deadlines, but because they had fewer doubts about
Eyat’s corporate capabilities than they did about PCL’s, they believed that Eyat might resolve its
issues; the officials also said they did not terminate Eyat as quickly as PCL because Eyat was
the lowest bidder and would be costlier to replace. In addition, South Sudanese ministers asked
USAID not to terminate Eyat. USAID/South Sudan officials noted that this pressure from the
Government of South Sudan was because Eyat was a Sudanese contractor.

LBG initially responded to Eyat’s poor performance by allocating about half of its section to
ANT, one of the contractors that had replaced PCL, dividing the section into 3A and 3B.
However, 129 days after the contract was supposed to be done, less than 25 percent of the
work Eyat was supposed to do was finished. So USAID consented to LBG’s request to
terminate Eyat’s contract and to replace it with ANT.

Delays With New Subcontractors. In addition to increasing costs, replacing PCL and Eyat
added significant time to the schedule, as shown in Table 2. Moreover, at the time of audit
fieldwork, the new subcontractors did not expect to meet their established deadlines, delaying
the project further. However, these subcontracts provide for liquidated damages5 that could
allow USAID to recover some of the additional costs incurred by LBG to oversee these
subcontractors for longer than expected, although LBG is responsible for applying liquidated
damages.


5
 Liquidated damages are used to compensate the U.S. Government for probable damages because of
nonperformance. They are not punitive.


                                                                                                6
                   Table 2. Delays Caused by Subcontractor Terminations
                                                                                     Estimated
                             Original                     Revised     Estimated
              Original                   Replacement                                Delay of New
 Section                    Completion                   Completion   Completion
            Subcontractor                Subcontractor                             Subcontractors
                              Dates                        Dates        Dates
                                                                                       (Days)
                             Oct. 30,                     Aug. 26,     Dec. 15,
    1           PCL                          ANT                                        111
                              2010                          2011         2011
                             Oct. 10,                     Sept. 7,     Nov. 15,
    2           PCL                         Gulsan                                      435
                              2010                          2011         2012
                             Oct. 30,                     Feb. 25,     June 15,
   3A           Eyat                         ANT                                        111
                              2010                          2012         2012
                             Oct. 30,                     June 25,     Sept. 15,
   3B           Eyat                         ANT                                        82
                              2010                          2012         2012

While LBG may be able to recover some costs from the new subcontractors for their delays, the
subcontractors can file claims for extensions of time and additional costs. For example, LBG
gave ANT a 68-day extension to complete Section 3A because the community did not allow the
subcontractor to move into LBG’s site alongside the road. ANT and Gulsan also notified LBG
that they intend to file claims for extra time and costs related to delays caused by a variety of
reasons, such as the Sudanese People’s Liberation Army closing the road on certain days, a
generator that fell off a truck while being transported through Kenya, and rock being harder than
anticipated. A USAID/South Sudan official speculated that the subcontractors were trying to
find any reason to defray the liquidated damages for which the subcontractors will be liable.




        Men gather on the Kimbi bridge, the only other activity done in the Sudan
        Infrastructure Services Project. (Photo by LBG, July 2008)

The cost and time needed to build the Juba-Nimule road have limited the amount of
infrastructure improvements USAID has been able to make in South Sudan. Originally the task
order included using more than $170 million of the total $250 million for other projects.


                                                                                                7
However, because of the cost overruns on the Juba-Nimule road, the task order wound up
paying for only one other infrastructure project: refurbishing the Kimbi bridge in Yei (Central
Equatoria State), shown in the photo above, which cost $25,170.

This report does not make any recommendations related to this finding because the findings
below include recommendations related to these cost overages.

Task Order Between USAID and
Louis Berger Group Did Not
Define Deliverables
The Juba-Nimule road is part of a cost-plus-fixed-fee completion task order with a ceiling price
of $250 million and a fixed fee of $9.6 million. The FAR 6 requires task orders to “clearly
describe all services to be performed or supplies to be delivered so the full cost or price for the
performance of the work can be established when the order is placed.” In addition, the FAR
states that use of a completion contract “normally requires the contractor to complete and
deliver the specified end product . . . within the estimated cost, if possible, as a condition for
payment of the entire fixed fee.”7

Despite this requirement, the task order did not describe all of the services LBG was to provide;
the only project defined was the Juba-Nimule road. The contracting officer who was involved in
awarding the task order said he could not recall why it did not define all of the services to be
provided. The omission was even more questionable because before the task order went into
effect, LBG estimated that the Juba-Nimule road would cost approximately $80 million (including
a 4 percent fee for LBG)—a good indication that the $250 million task order would include
substantially more work than the road.

Deliverables were not defined because USAID policy did not require extensive reviews of task
orders and required only one contracting officer to be involved. Had USAID/South Sudan
conducted an independent review, the problems with LBG’s task order might have been
resolved and documented before it was signed. Additionally, if USAID/South Sudan had used
LBG’s estimated cost of $80 million in the task order, the company’s fee would have been
$3.1 million instead of $9.6 million—saving U.S. taxpayers $6.5 million.

Also, LBG had little incentive to keep costs down on the Juba-Nimule road. By going over
budget on the road, for example, LBG received the same fee without having to undertake any
other infrastructure projects in South Sudan.

The task order’s scope of work was reduced substantially by limiting the work completed
predominantly to the Juba-Nimule road.    Therefore, the audit makes the following
recommendation.

      Recommendation 1. We recommend that USAID/South Sudan determine whether the
      fixed fee in Task Order Two of the Sudan Infrastructure Services Project can be reduced
      based on the reduction in the scope of work, document this determination, and recover
      the excess amount from the Louis Berger Group.

6
    Section 16.505(a)(2).
7
    Section 16.306(d)(1).


                                                                                                 8
There was no justification for the amount the task order was worth, yet the mission signed the
contract, thereby obligating USAID to pay LBG $9.6 million to complete work that had not been
defined. Had mission policy required an independent review of the task order by someone other
than the awarding official, the content could have been corrected, or at least the justification for
the deliverables and amounts within the current task order would have been documented.
Therefore, the audit is making the following recommendation.

   Recommendation 2. We recommend that USAID/South Sudan develop and implement
   a policy to have a second-level review by a contracting official of task orders worth more
   than a certain dollar amount to confirm they are structured to encourage contractors to
   fulfill their end of the agreement on time and within budget.

Louis Berger Group Did Not
Communicate Appropriately
With USAID

Lack of Communication During Contractor Termination Negotiations.                    The indefinite
quantity contract between LBG and USAID says:

       The contracting officer is the sole authority authorized to approve changes in any
       of the requirements under this contract . . . These changes include, but will not
       be limited to the following areas: scope of work, price, quantity, technical
       specifications, delivery schedules, and contract terms and conditions. In the
       event the Contractor effects any changes at the direction of any other person
       other than the contracting officer, the change will be considered to have been
       made without authority.

Although LBG got USAID/South Sudan’s approval to subcontract with ANT, it did not
communicate with the contracting officer before or during negotiations with Eyat, which had a
direct effect on the price of the Juba-Nimule road. The combination of increased costs incurred
by hiring ANT, payments made to Eyat, and payments to LBG for costs it bore on behalf of Eyat
added $17.4 million to the project, some of which USAID should be able to recover. LBG
initially negotiated with Eyat the amount to be recovered on USAID’s behalf. However, the
USAID/South Sudan contract specialist responsible for the LBG contract identified some items
that could have been charged to Eyat:

1. LBG retained almost $1.8 million in funds from Eyat during the contract period as
   performance security to make sure the subcontractor would not default. The USAID
   contract specialist said these funds were forfeited because Eyat defaulted.

2. LBG and USAID agreed that Eyat owes liquidated damages for late performance and that
   the maximum amount of liquidated damages would apply. However, they disagreed on
   what base to use when calculating the amount. LBG contended that the base should be
   15 percent of the completed work (about $7 million), and USAID contended it should be
   15 percent of the final contract value (about $17 million). The difference between the two
   amounts is about $1.6 million.

3. Both mobilization and security are covered by lump sum amounts in the contract. Because
   Eyat provided security and mobilized its equipment and employees, LBG contended that the

                                                                                                  9
     subcontractor should get the full amount (more than $3.4 million). The USAID contract
     specialist said the amounts were for the full performance of the contract, but because less
     than 25 percent of the work was completed, Eyat should receive only that percentage of the
     lump sum. However, the USAID/South Sudan contracting officer’s technical representative 8
     (COTR) agreed with LBG that Eyat should be paid because it mobilized its equipment and
     provided security for the term of the contract. The difference between these amounts is
     $2.6 million.

The USAID/South Sudan COTR and the engineering consultant agreed with the contract
specialist about the performance security and the liquidated damages (points 1 and 2 above).
However, they agreed with LBG about the security and mobilization costs (point 3). Table 3
shows these differences in detail.

             Table 3. Different Calculations of Eyat Termination Costs (audited)
                                                            Value According        Value According to
                                       Value LBG
               Item                                         to USAID COTR           USAID Contract
                                      Negotiated ($)
                                                                   ($)                Specialist ($)
    Works/services delivered                   3,535,610            3,535,610                 3,535,610
    Security                                   2,350,000            2,350,000                    584,870
    Mobilization                               1,080,000            1,080,000                    268,791
    Sale of camp/vehicles                        272,550              272,550                    272,550
    Eyat expenses paid by LBG                  (215,813)            (215,813)                  (215,813)
    Payment to security                        (272,574)            (272,574)                  (272,574)
    company
    Liquidated damages                       (1,053,352)          (2,645,407)               (2,645,407)
    Performance security                               -          (1,763,605)               (1,763,605)
    Payments to date                         (2,842,352)          (2,842,352)               (2,842,352)
    Balance                                    2,854,068            (501,591)               (3,077,931)

These discrepancies occurred because LBG did not communicate with the USAID contracting
officer about its prenegotiating position. However, LBG did communicate with other
USAID/South Sudan staff members several times before and during negotiations with Eyat.
Specifically, LBG:

     Sent an e-mail to the COTR notifying him that LBG intended to purchase vehicles and a
     portion of the work camp from Eyat on April 27, 2011.

     Met with the economic growth team leader and the COTR on May 28, 2011, when the team
     leader noted that LBG should withhold liquidated damages.

     Met with the USAID deputy mission director on June 6, 2011, after the last meeting with
     Eyat, to discuss the negotiations.




8
  A contracting officer’s technical representative (COTR) assists in monitoring or administering a contract.
Effective January 1, 2012, USAID changed the terms contracting officer’s technical representative and
agreement officer’s technical representative to contracting officer’s representative to align with changes in
the FAR.


                                                                                                           10
The deputy mission director wrote that she recalled discussing LBG’s proposal of returning
Eyat’s performance security funds. However, she said, “We never asked that the performance
security/liquidated damages be returned to Eyat, and clearly, our contracting officer (who was
not at the meeting) has the final authority to approve LBG’s proposal.” Although LBG
communicated with several USAID officials, none of these officials had the authority to approve
changes to the contract price.

After this initial miscommunication, USAID/South Sudan should have been more proactive
about resolving the disagreements between the contracting specialist and LBG. However,
USAID/South Sudan did not have consistent staffing in the contracting officer position; a LBG
official said he believed nine had been assigned to the project to date. However high turnover
does not preclude consistent coverage; the official said he did not have problems with a contract
he managed between LBG and USAID/Iraq in which 27 contracting officers were involved over
a 3-year period.

Despite the staffing issue with USAID/South Sudan, it was LBG’s responsibility to confirm that
the contracting officer approved any change to the contract’s price. Because this had not yet
occurred, USAID was not obligated to abide by the terms negotiated by LBG.

USAID’s rejection of LBG’s terms will cause a dispute between Eyat and LBG. This dispute
may not be easy to settle amicably because of the months that have elapsed since the
negotiations took place. However, this situation does not permit USAID/South Sudan to
reimburse LBG for expenses that are not allowable. Therefore, the audit makes the following
recommendations.

      Recommendation 3. We recommend that USAID/South Sudan develop and implement
      a plan to provide consistent contracting support for agreements managed by the
      mission.

      Recommendation 4. We recommend that USAID/South Sudan determine the final
      amount for the contract between Eyat and the Louis Berger Group and recover from the
      Louis Berger Group any excess due to USAID.

Lack of Communication About Potential Claims From Subcontractors. In addition to the
indefinite quantity contract requirements for contracting officer approval of changes in scope of
work, price, quantity, etc., the FAR9 notes that:

          The Contractor shall give the contracting officer immediate written notice of any
          action or suit and prompt notice of any claim made against the Contractor by any
          subcontractor or vendor that, in the opinion of the Contractor, may result in
          litigation related in any way to this contract, with respect to which the Contractor
          may be entitled to reimbursement from the Government.

USAID/South Sudan officials said LBG had not notified them about claims from subcontractors
that potentially affected USAID’s financial liability. One of LBG’s subcontractors made a claim
for $2.2 million, and although USAID/South Sudan knew there was the potential for a claim,
mission officials did not know it had been filed until more than 20 months later, when the
subcontractor took LBG to litigation. ANT filed a claim for an extension of time because

9
    Section 52.244-2(h)


                                                                                                 11
problems with the community prevented the firm from establishing a camp. LBG approved the
extension before notifying USAID about it.

These problems occurred because of miscommunications between LBG and USAID/South
Sudan. LBG officials said it was not hard for them to communicate the potential claims to
USAID, but they did not know that USAID wanted to know about them. Mission officials
disagreed and said other claims have been discussed since 2008.

The responsible regional legal advisor said USAID could deny paying for these claims only if
LBG had been “grossly negligent,” which is a difficult threshold to meet. Nevertheless,
insufficient information about potential future obligations related to subcontractor claims would
make it difficult for USAID to estimate the total cost of the project. This information also is
important to guide USAID in allocating funds—especially as the project nears completion.

Additionally, LBG has no incentive to contest these claims in court. Because the task order is
on a cost reimbursement basis, the results of litigation between LBG and the subcontractors will
not affect LBG. This situation necessitates that USAID get involved to protect the interests of
the U.S. taxpayer. Therefore, the audit makes the following recommendations.

   Recommendation 5. We recommend that USAID/South Sudan arrange for staff
   members to represent USAID’s interest during any negotiation, arbitration, or litigation.

   Recommendation 6. We recommend that USAID/South Sudan define and document
   the roles and responsibilities of officials who oversee the Louis Berger Group contract,
   as well as the specific information that the Louis Berger Group needs to share with
   USAID, and provide this information to the Louis Berger Group.

USAID Did Not Complete
Required Contractor Evaluations
FAR Subpart 42.15 specifies policies and procedures for completing evaluations of contractor
performance. Reflecting these requirements, the Sudan Infrastructure Services Project’s
contract states that evaluations of LBG’s performance for the whole project should be
completed annually. Additionally, any multiyear task orders under the project for more than
$100,000 should be evaluated after 12 months of performance, and interim evaluations should
be conducted at the discretion of the contracting officer, but generally should be updated at
least every 2 years.

Despite these requirements, LBG officials said they received only one task order evaluation,
and it was not for the one related to the Juba-Nimule road. Although the COTR had completed
contractor evaluations for the road’s task order, they had not been finalized by a contracting
officer and therefore were not issued to LBG. The COTR said the current contractor evaluation
system did not allow him to initiate an evaluation. In addition, once he wrote an evaluation, the
system did not allow him to determine whether it was finalized and sent to the contractor.
Employees in USAID’s contracting offices in Sudan and South Sudan got access to the
evaluation system only near the end of our fieldwork.

Contractor performance evaluations were lacking because the missions’ previous managers did
not make them a priority, a problem that was exacerbated by high contracting officer turnover.



                                                                                               12
A senior mission official said he did not know USAID was doing contractor evaluations any
more.

Although their reasons differed, USAID and LBG officials decried the lack of contractor
performance evaluations. A USAID official said the prospect of a poor evaluation was a potent
means of influencing contractor performance, while an LBG official stated that good evaluations
helped the company when it was bidding on work. Echoing this claim, the Government
Accountability Office has ruled that failure to document contractor performance information and
make it available can be the basis for challenging the award of a contract.10 More importantly,
U.S. Government officials making decisions about future procurements will not have all of the
information about LBG’s prior performance without completed contractor evaluations.
Consequently, this audit makes the following recommendations.

      Recommendation 7. We recommend that USAID/South Sudan prepare all overdue
      contractor evaluations for the Louis Berger Group under the Sudan Infrastructure
      Services Project.

      Recommendation 8. We recommend that USAID/South Sudan designate an official in
      writing to confirm that contractor performance evaluations are completed as required.

      Recommendation 9. We recommend that USAID/South Sudan train all mission
      personnel on their roles and responsibilities related to contractor performance
      evaluations.

Government of South Sudan Is Unlikely
to Maintain the Juba-Nimule Road
According to the Foreign Assistance Act of 1961,11 one of the five principal goals of U.S.
assistance is to enable developing countries to achieve self-sustaining economic growth. Since
adequate transportation infrastructure is a critical prerequisite for South Sudan’s economic
growth, USAID and LBG have been working with the South Sudanese Government to create a
quasi-governmental entity with a staff that is independent from the Ministry of Roads and
Bridges to maintain the country’s roads. As part of this effort, USAID—through LBG—helped
draft the law establishing the Roads Authority (which the South Sudanese Parliament passed),
developed its organizational structure, and paid for renovating a building to serve as its
headquarters.

Despite these activities, there is significant doubt about whether the South Sudanese
Government has the capability or will to maintain the Juba-Nimule road.

Other incidents also cast doubt on the road’s sustainability. When the Ministry of Transportation
and Roads split into the Ministry of Roads and Bridges and the Ministry of Transport, the latter
established offices in the renovated building for the Roads Authority—depriving it of office
space. LBG officials said they had been meeting monthly with the South Sudanese
Government and USAID officials to discuss the progress of the Juba-Nimule road, but the South
Sudanese representatives stopped attending. Additionally, USAID/South Sudan and LBG have

10
     International Business Systems, Inc., B-275554, March 3, 1997.
11
     Section 101, Part 1, Chapter 1, “Policy; Development Assistance Authorizations.”


                                                                                              13
been prepared to hand over seven completed bridges to the South Sudanese Government
since April 2011, but the South Sudanese Government had not said when it wants to take
control of the bridges.

Finally, in 2009 LBG asked the South Sudanese Government to send three junior engineers to
work with LBG crews so that they could receive on-the-job training. According to an LBG
official, South Sudan initially expressed some interest, but asked USAID to pay the engineers’
salaries and expenses; USAID turned the request down because it violated Agency regulations.
Although the South Sudanese Government eventually sent two staff members to LBG in 2011,
an LBG official said they lacked rudimentary knowledge of road construction and questioned
whether the Ministry of Roads and Bridges would hire them after training with LBG concluded.

In addition, there are other risks to the road’s durability. During site visits, auditors observed
multiple accidents that damaged the road, as shown below. Auditors also saw numerous idle
trucks, either broken down or waiting to go through customs. A USAID official said the
operators of these idle trucks often drain diesel to use for cooking, which then spills onto the
road and damages the surface. Overloaded vehicles also can hurt the road, and South Sudan
lacks the regulatory framework and infrastructure to deter overloading, a top LBG official said.




Gouges are evident in the surface of the Juba-Nimule road after a truck accident. (Photo by
RIG/Pretoria, November 4, 2011)

Although the useful life of a road varies, the Juba-Nimule road should last between 15 and
25 years with proper maintenance. However, the damage caused by the road’s users combined
with the South Sudanese Government’s inability to maintain it is likely to significantly decrease
that life span.

As a result, the audit makes the following recommendation.


                                                                                               14
   Recommendation 10. We recommend that USAID/South Sudan identify and document
   the most significant threats to the maintenance of the Juba-Nimule road and engage the
   Government of South Sudan to address these threats.

Other Factors Could Offset
Road’s Benefits
One of the main goals for the Juba-Nimule road is to facilitate trade. The upgrades have made
it quicker and easier for trucks to travel, thereby encouraging commerce between South Sudan
and its neighbors.

However, increased traffic volume has caused more accidents, some of which have been fatal.
For example, on June 17, 2011, two buses collided, killing 28 people and injuring 82 more, as
shown in the photo below. According to the government, three people die on average every day
from accidents on the Juba-Nimule road. The growth in traffic has also increased the wait time
at the border from 3 hours to 3 days, according to an LBG official.

These problems are due to the lack of action taken to expedite customs clearance at the border
and the lack of policing in certain areas. A May 2007 feasibility assessment, prepared by LBG
to evaluate proposed construction alternatives of the Juba-Nimule road, predicted that traffic
would increase as the road was improved, although it did not foresee the magnitude of that
increase. Lack of responsiveness by the South Sudanese Government could further
exacerbate these problems, as traffic continues to increase as more of the road is paved. A
South Sudanese official said the South Sudanese Government was planning to train customs
officials to improve the processing time. He also said that to address the number of accidents,
the South Sudanese Government intends to establish a road safety council. These actions are
neither sufficient nor expeditious enough to address these issues.




Two wrecked buses still sit after colliding on the Juba-Nimule road on June 17, 2011, killing 28
people and injuring 82 others. (Photo by RIG/Pretoria, November 4, 2011)


                                                                                                   15
In addition to reducing the road’s economic benefits, excessive border delays contribute to
health and safety problems. LBG and USAID/South Sudan officials said truck drivers often
traveling from areas in Kenya and Uganda where HIV is prevalent might spend days at the
border waiting for customs clearance where many partake in alcohol and prostitution. LBG
officials said drivers clear customs while they are still drunk, making the road even more
dangerous. USAID officials also noted that the border delays result in overloading, as several
trucks consolidate loads at the border to avoid waiting for clearance. Finally, USAID officials
commented that these delays could foster corruption because drivers will pay bribes to avoid
spending days at the border.

Since auditors believe USAID/South Sudan should consider these issues during future
activities, this report makes the following recommendation.

   Recommendation 11. We recommend that USAID/South Sudan include in its next
   portfolio review a discussion on whether any of its planned activities could or should
   address the obstacles that prevent the Juba-Nimule road from achieving its full potential.




                                                                                                16
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report and in subsequent discussions, USAID/South Sudan agreed
with all 11 recommendations.          Management decisions have been reached on eight
recommendations, and final action has been taken on three. In accordance with ADS 595,
Recommendations 1 and 4 remain open pending the contractor officer’s determination of
excess amounts owed USAID and a target date of collection. Recommendation 2 remains open
pending the mission’s setting of a target date for implementing a policy requiring an independent
contracting officer review of task orders. Our detailed evaluation of management comments
follows.

Recommendation 1. USAID/South Sudan agreed to determine whether the fixed fee in Task
Order Two could be reduced based on the reduction in scope of work, and recover from LBG
any excess fee, but had not yet developed a timeline for completion of this recommendation.
Therefore, a management decision for Recommendation 1 is pending the contracting officer’s
determination of any fee reduction and a target date for the collection of any excess.

Recommendation 2. In its comments on the draft report, USAID/South Sudan did not concur
with the recommendation to implement a policy to have an independent contracting officer
review task orders worth more than a certain amount. The mission noted that independent
reviews are not required for task orders and that the mission was addressing the problem by
adding contracting officers and legal advisors, as well as contracting officer’s representatives.
However, in subsequent conversations, mission officials said they had understood that the
independent review intended by the recommendation would have been through the contracts
review board, which is independent to the mission as a whole. They did agree that a second-
level review of all significant awards and contracts, including task orders, was essential and was
in fact a common practice with a fully staffed acquisition and assistance office within a mission.
Further, they agreed to implement a policy to have a second-level review by a contracting
official of all task orders worth more than a certain amount once they have more staff members.
As a result, we modified the finding and refined the recommendation slightly for clarity. A
management decision will be reached on Recommendation 2 once the mission sets a target
date of completion for implementing the policy.

Recommendation 3. USAID/South Sudan agreed to develop and implement a plan to provide
consistent contracting support for agreements managed by the mission. Mission officials said
they already have added both a legal advisor and supervisory contracting officer, and their
staffing plan includes adding several other positions; the Ambassador has to authorize the plan
by January 31, 2013.          Therefore, a management decision has been reached on
Recommendation 3.

Recommendation 4. USAID/South Sudan agreed to determine the final amount for the
contract between Eyat and LBG, and recover from LBG any excess due to USAID, but had not
yet developed a timeline for completion of this recommendation. Therefore, a management
decision for Recommendation 4 is pending the contracting officer’s determination of the final
amount for the contract between Eyat and LBG and a target date for the collection of any
excess owed USAID.


                                                                                               17
Recommendation 5. USAID/South Sudan agreed to arrange for staff members to represent
USAID’s interest during any negotiation, arbitration, or litigation and has already assigned staff
members who have been working closely with USAID/Washington General Counsel’s office and
LBG in connection with the arbitration proceeding involving LBG and its subcontractor. As a
result, a management decision has been reached, and final action taken on Recommendation 5.

Recommendation 6. USAID/South Sudan responded that they had defined the roles and
responsibilities of officials who oversee the LBG contract, as well as the specific information that
needs to be shared with USAID, and have provided this information to LBG. Further, the
mission pointed out that they had a transition of several contracting officers, but they now have
a supervisory contracting officer who acts as the principle point of contact for the LBG contract.
As a result, a management decision has been reached, and final action taken on
Recommendation 6.

Recommendation 7.        USAID/South Sudan agreed to prepare all overdue contractor
evaluations for LBG under the Sudan Infrastructure Services Project by November 30, 2012. As
a result, a management decision has been reached on Recommendation 7.

Recommendation 8. USAID/South Sudan agreed to designate an official to assure that
contractor performance evaluations are completed as required by November 30, 2012. As a
result, a management decision has been reached on Recommendation 8.

Recommendation 9. USAID/South Sudan agreed to train all mission personnel on their roles
and responsibilities related to contractor performance evaluations by November 30, 2012. As a
result, a management decision has been reached on Recommendation 9.

Recommendation 10. USAID/South Sudan identified and documented in their response the
most significant threats to the maintenance of the Juba-Nimule road and explained how they
would engage the Government of South Sudan. As a result, a management decision has been
reached, and final action taken on Recommendation 10.

Recommendation 11. USAID/South Sudan agreed to include in its next portfolio review a
discussion on whether any of its planned activities could or should address the obstacles that
prevent the Juba-Nimule road from achieving its full potential. The mission’s response
highlighted a number of ongoing studies that it was using to examine the problem and
highlighted some points that would be discussed at the July 2012 portfolio review. As a result, a
management decision has been reached on Recommendation 11.




                                                                                                 18
                                                                                          Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/Pretoria conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

The objectives of this audit were to determine (1) whether the Juba-Nimule road was on track to
be completed on schedule and within budget and (2) whether USAID/South Sudan built
sustainability into the mission’s road infrastructure activities.

Audit fieldwork took place from November 1 to 18, 2011, and covered all activities related to the
Juba-Nimule road through November 18, 2011, with particular emphasis on the period since the
previous audit’s fieldwork, which concluded on June 30, 2009. USAID/South Sudan had
estimated that $250 million would go toward roads and bridges under the task order with LBG.
The August 2011 budget, developed by LBG, showed that total spending under the task order
was estimated at $228.3 million, of which 98 percent is allocated to the Juba-Nimule road.

In planning and performing this audit, we assessed internal controls related to data quality,
ongoing monitoring, reporting, and evaluations. Specifically, we reviewed the following:

      The fiscal year (FY) 2011 Federal Managers’ Financial Integrity Act of 198212 certification for
      USAID/Sudan and USAID/South Sudan.

      USAID/South Sudan mission order on monitoring.

      Site visit reports and meeting minutes for FY 2011.

      Key correspondence among USAID, LBG, and the Government of South Sudan.

      Contractor monthly and quarterly progress reports for FY 2011.

      Contractor agreements and modifications to those agreements.

      Contractor work plans for FYs 2010 and 2011.

      LBG contracting files.

      A historical review of cost increases prepared by the USAID/South Sudan engineering
      consultant in August 2011.


12
     Public Law 97-255, codified in 31 U.S.C. 3512.


                                                                                                  19
                                                                                      Appendix I


   Draft road maintenance plan prepared by LBG dated November 2011.

We also interviewed key USAID/South Sudan personnel, contractor personnel, South Sudanese
Government officials, and beneficiaries. In addition, we drove the length of the Juba-Nimule
road, including stops along the way to observe the bridges and operations for crushing rocks
and paving the road. We conducted the audit at USAID/South Sudan and LBG offices in Juba.

Methodology
To answer the audit objectives, we identified the current USAID and LBG cost and completion
estimates for the Juba-Nimule road. To identify the completion dates, we reviewed a schedule
prepared by the USAID/South Sudan COTR for the contracting officer on August 5, 2011. We
discussed these dates with USAID and LBG officials and found them to be reasonably accurate.
These dates are presented in Table 2 (page 7). To calculate the estimated cost, we reviewed
the August 2011 task order budget prepared by LBG. We modified this budget to remove the
amounts spent on refurbishing the Kimbi bridge and improving the USAID compound in Juba,
and added the remainder of the fixed fee, which may be due even though the full $250 million
was not expended. After these adjustments, the total estimated cost of the road was
$223.2 million.

Next, we calculated the total budget overage and delay and identified what caused the budget
and timeline to increase, including the replacement of subcontractors. We primarily relied on
the historical review of cost increases (noted above) to identify the reasons for budget overages
and delays, although we prepared our own analysis to determine how much each event
contributed to the cost increase.

We then tried to determine the reasons for the budget overages and delays. We studied the
preaward review performed by LBG to be sure that it exercised due diligence, as discussed in
FAR 44.202-2. We also discussed the terminations of PCL and Eyat with USAID and LBG
officials to find out why these terminations caused costs to increase so dramatically. We
reviewed the claims process because it could be a significant determinant of how much the
delays of ANT and Gulsan cost the U.S. Government.

The audit did not rely on performance indicators because they did not address the audit
objectives. Therefore, the audit did not establish any materiality thresholds.




                                                                                              20
                                                                                                                      Appendix II



               MANAGEMENT COMMENTS


               MEMORANDUM
               Date:         May 1, 2012

               To:           Christine M. Byrne, Regional Inspector General/Pretoria

               From:         Kevin Mullally, USAID/South Sudan Mission Director /s/

               Subject:      Management Comments, Follow-Up Audit of USAID/South Sudan‟s Road
                             Infrastructure Activities (Report Number 4-668-12-XXX-P)

               Reference:    Christine M. Byrne‟s memo dated March 28, 2012
                             Draft Audit Report Number 4-668-12-00X-P

               In response to the referenced draft audit report, please find below USAID/South Sudan
               management comments on the eleven recommendations included therein. USAID/South Sudan
               would like to extend its sincere thanks to the audit team for the professionalism and
               thoroughness displayed in the execution of this audit.

               Recommendation No 1:         We recommend that USAID/South Sudan determine
               whether the fixed fee in task order two of the Sudan Infrastructure Services Project can
               be reduced based on the reduction in the scope of work, and recover from Louis Berger
               Group the excess fee.

               Management Comments: Mission Management concurs with the recommendation. The
               Contracting Officer will review this and determine whether the fixed fee can be reduced. This
               will be made within the time limitations for determining allowability of costs. At such time a
               management decision will be made.

               Recommendation No 2:         We recommend that USAID/South Sudan develop and
               implement a policy to have an independent contracting officer review task orders over a
               certain dollar value to ensure they are structured to encourage contractors to fulfill
               their end of the agreement on time and on budget.
Courier Address:                                Pouch Address:                   Tel: +1 202 216 6279 extension 216
U.S. Embassy                                    4420 Juba Place                  Website: www.usaid.gov
Juba, South Sudan                               Washington DC 20521




                                                                                                                              21
                                                                                       Appendix II



Management Comments: Mission Management does not concur with the
recommendation. The Mission followed proper USAID policies and procedures. Independent
review, as recommended in the report, is not applicable to Task Orders under IQCs. With
specific regard to better structured awards, the Mission has already begun to expand its staffing
with both a Legal Advisor and Supervisory Contracting/Agreement Officer at post. The Mission
also receives ad hoc acquisition and assistance (A&A) support from USAID/Washington and
East Africa. In addition, the Mission has developed a staffing plan to further increase
contracting staff. In conjunction with the contracting and legal staff, the Mission devised a
staffing plan to increase the number of staff to manage programs and provide monitoring,
training and oversight of Contracting Officer‟s Representatives (COR). The first five NSDD-
38s have been submitted and approved by the Ambassador for submission through the formal
NSDD-38 process. USAID/South Sudan will submit the remaining additional NSDD-38s to the
Ambassador in line with the revised staffing plan by January 31, 2013. Mission Management
believes this will resolve this finding.

Recommendation No 3:       We recommend that USAID/South Sudan develop and
implement a plan to provide consistent contracting support for agreements managed by
the mission.

Management Comments: Management concurs with the recommendation. Resolution will
derive from the same actions taken in relation with recommendation No. 2 above.

Recommendation No 4:        We recommend that USAID/South Sudan determine the
final amount for the contract between Eyat and Louis Berger Group, and recover from
Louis Berger Group any excess due to USAID.

Management Comments: Mission Management concurs with the recommendation. This will
be made within the time limitations for determining allowability of costs. At such time, a
management decision will be made.

Recommendation No 5:          We recommend that USAID/South Sudan (1) determine
USAID’s potential liability for subcontractor claims under the Sudan Infrastructure
Services Project, and (2) arrange for staff to represent USAID’s interest during any
negotiation, arbitration, or litigation.

Management Comments: Mission Management concurs with the recommendation. The
Mission and the General Counsel's office in Washington are working closely with counsel to
LBG in connection with the arbitration proceeding involving LBG and Progressive
Constructions Limited (PCL). With respect to the negotiations LBG is undertaking with Eyat,
the Mission is collaborating with LBG to determine a final settlement amount. Accordingly, the
Mission is already assessing its potential liability for pending claims submitted by subcontractors
and working diligently with LBG to resolve them. Further claims submitted by subcontractors

                                                                                                22
                                                                                     Appendix II


that require USAID's approval will be evaluated on a case-by-case basis as they arise and any
potential USAID liability will be determined at such time.

Therefore, the Mission requests concurrence that a Management Decision has been reached.

Recommendation No 6:          We recommend that USAID/South Sudan define the roles
and responsibilities of officials that oversee the Louis Berger Group contract, as well as
the specific information that needs to be shared with USAID, and provide this
information to Louis Berger Group.

Management Comments: Mission Management concurs with the recommendation. This has
already been accomplished. LBG is fully aware that only the Contracting Officer (CO) has the
ability to modify contract terms and conditions. LBG is fully aware of the role, responsibilities
and identity of the COR. This includes works for the roads and residential and office
compounds. While USAID/South Sudan did have a transition of several COs, the Mission now
has at post a Supervisory CO who is also the cognizant CO for the LBG contract. The
Supervisory CO has further defined all roles and responsibilities and now has all correspondence
going through him and copying the COR and Senior A&A Specialist. All have since been
defined by the Supervisory CO with LBG management in Juba and in Washington DC. The
Mission therefore requests closure of this recommendation.

Recommendation No 7, 8 and 9:

   7. We recommend that USAID/South Sudan prepare all overdue contractor
      evaluations for the Louis Berger Group under the Sudan Infrastructure Services
      Project.
   8. We recommend that USAID/South Sudan designate an official to assure that
      contractor performance evaluations are completed as required.
   9. We recommend that USAID/South Sudan conduct training of all mission
      personnel on their roles and responsibilities related to contractor performance
      evaluations.

Management Comments: Mission Management concurs with the recommendations. Corrective
actions will be taken and completed by November 30, 2012.

Recommendation No 10: We recommend that USAID/South Sudan identify the most
significant threats to the maintenance of the Juba-Nimule road and engage the
Government of South Sudan to address these threats.

Management Comments:         Mission Management concurs with the recommendation.

Background: In its 2004 development strategy, USAID made the decision to include road
infrastructure development as a key development activity. As part of this process, USAID
identified threats and constraints to maintenance of roads in South Sudan and made a decision to
develop South Sudan‟s road maintenance capacity in parallel with the development of physical

                                                                                                23
                                                                                      Appendix II


road infrastructure. This was done not only because it was sound development practice but also
because the sustainable maintenance of infrastructure investments is required by USG Foreign
Assistance Act of 1961, as was noted by the RIG Auditors. Notable achievements to date have
been:

•   Development of the National Transport Policy, which was formally approved and adopted by
    the Government of South Sudan (GOSS) and Ministry of Roads and Bridges (MRB) in 2007.
    The policy clearly identifies road maintenance as the highest priority; a higher priority even
    than rehabilitation and construction of new roads

•   Drafting legislation and advocacy activities that resulted in the legal establishment of the
    South Sudan Roads Authority (SSRA) and appointment of its broad-based Board of Directors

•   Construction and equipping of a modern office facility to house the new SSRA Institution

•   Technical Training and sponsoring Regional Study Tours to expose GOSS/MRB staff to best
    practices first-hand knowledge of several successfully operating road Authorities in the
    region

•   Development of appropriate maintenance specifications and contract documents

•   Identification and training of 30 South Sudanese private sector contractors in labor-based
    rehabilitation and maintenance work and the award of training contracts supervised by Louis
    Berger Group (LBG)

• Draft of a Vehicle Weight Control Policy and implementation plan (Pending approval by
    GOSS).
• Draft of an Axle Load control policy and action plan (pending approved by GOSS)
• Draft of a national Road Safety and Traffic Bill (pending approved by GOSS).
Despite completion of the above actions, the Mission shares RIG concern about GOSS
commitment and ability to maintain roads. General capacity within the Ministry remains
extremely limited. Political and strategic pressures to expand the road network often
overshadow the government‟s policy and stated commitment to road maintenance and the
protection of the enormous road investments being made by USAID and other donors. In
addition, there have been 4 different ministers and 4 different Undersecretaries since GOSS was
established following the CPA, limiting the ability of the Ministry to develop and implement a
consistent vision.

As a result, although the road transport sector has always been a high priority and received
significant funding from the government, performance in the sector has been poor and many
questions remain regarding GOSS road maintenance commitment and capacity. This includes
fully establishing and supporting the SSRA in time to maintain the Juba-Nimule Road, which is
currently on track to be completed in July 2012. The situation has been compounded by the


                                                                                               24
                                                                                         Appendix II


recent South Sudan authorities‟ decision to shut down the pipeline used to transit South Sudan‟s
oil, which provides 98 percent of the government‟s revenue. The ability of the government to
fund any significant road maintenance activities is now in question, regardless of currently
budgeted amounts. However, recent announcements from the Chinese about the provision of $8
billion in loans, including for the construction and maintenance of roads, provides some possibly
for access to needed capital.

As the Mission has been well aware of the critical importance of road maintenance as well as
ongoing constraints, last year USAID instructed LBG to prepare a 7-year maintenance plan and
budget for the Juba-Nimule (JN) road so that the ministry would have a plan and the documents
needed for maintenance procurements. The Mission has met with the Minister of Roads and
Bridges several times, most recently on April 17th, 2012. During the meeting USAID
highlighted that the current ministry budget did not allocate funding for maintenance of the JN
Road, and that failure to adequately plan and budget for needed maintenance placed continued
USAID funding for any new road activity in South Sudan in jeopardy. The total estimated 3-
year budget for routine and emergency maintenance of JN is $5-$6M.

On loads control, the Mission is well aware of the negative impacts of overloading by
commercial vehicles on the Juba Nimule Road (and other South Sudan‟s international routes). It
is emerging as a major, costly problem which is not only causing accelerated deterioration of the
road network but is also contributing to an already serious road safety problem. It is therefore
essential that this practice is curbed as soon as possible as failure to do so will impact negatively
on the Government‟s attempts to facilitate economic growth and development through the
provision of a good road network. In 2010, the Mission brought out an axle load policy and
operations expert who assessed the current situation in South Sudan and recommended actions
on several fronts. Currently, there is no comprehensive policy on overload control in South
Sudan. Such a policy is urgently required to provide the essential framework in which overload
control can be carried out efficiently and effectively. The expert prepared a comprehensive
policy that is harmonized with Uganda, Kenya and East African Community (EAC) practices on
overload control.

As a result, USAID has been pushing and continues to push for construction of a weigh station to
control and limit pavement loading. The main impediment to this has been selection by the
Ministry of two suitable locations; one closer to Juba, and the other near Nimule. USAID is still
pursuing construction of the weigh stations but conditional upon the government /ministry
commitment that staff and budgets to make the facility operational will be provided to effectively
operate the station. Path to Resolution: USAID will continue to engage the ministry to
adequately plan and budget for road maintenance, including for the JN Road. This would be
complimented by technical assistance as needed and warranted by continued progress on the
establishment of the SSRA. If the Ministry issues a JN Road maintenance covering repairs for
the most significant threats to road damage, USAID‟s advocacy efforts will have been
considered successful and the issue resolved. In addition, USAID will also continue to advocate

                                                                                                   25
                                                                                         Appendix II


for construction of a weigh station by the end of the calendar year in Dec 2012, subject to land
and budgets being made available by the Government of South Sudan /Ministry of Roads and
Bridges. USAID efforts towards the JN road maintenance contract and construction of a weigh
station and adoption loading control policy will be recorded and documented irrespective of the
outcome of the process.

However, given the short time remaining before JN Road completion, and worsening fiscal crisis
in South Sudan, if rapid progress is not made towards JN Road Maintenance contract and weigh
station activities, the Mission plans to redirect some of its infrastructure budget by September
2012 to cover short-term emergency road maintenance needs along the Juba-Nimule Road while
pressing for a MOU with the ministry regarding their support for funding a longer-term
maintenance contact, preferably through the SSRA. In this case, advocacy efforts would be
considered successful and the issue would be considered to be resolved upon signing of the
MOU.

Recommendation No 11: We recommend that USAID/South Sudan include in its next
portfolio review a discussion on whether any of its planned activities could or should
address the obstacles behind the Juba-Nimule road achieving its full potential.

Management Comments: Mission Management concurs with this recommendation that
highlights GOSS poor border operations and mounting safety issues along the JN road.

Background: The Mission anticipated the need to develop and implement road safety mitigation
activities as part of its road construction support activities. Major activities carried out to date
include:

       Drafting the National Transport Policy – approved by Parliament and signed by the
       President
       Drafted Road Traffic Act – pending approval
       Organized and funded Annual Road Safety Workshops, one of which defined and
       recommended establishment of the Road Safety Council for South Sudan
       Implemented a road safety program along entire the Juba-Nimule Road that included
              o 1-day workshops for teachers and students at schools along the road
              o Public Service Road Safety messages broadcast in local languages
              o Installation of Nine signboards /billboards with Road Safety messages along
                  JN road
              o Organized 3 road safety marches in Juba town that were jointly funded by
                  USAID, UN Agencies and Private sector with participation from Ministries of
                  Transport, Roads and Bridges and South Sudan Police Services.
              o Partnering with the US Department of Justice (DOJ) to implement a pilot
                  “Highway Patrol” project along the Juba-Nimule Road to improve
                  enforcement. DOJ is providing the training and motorcycles for the transit

                                                                                                  26
                                                                                    Appendix II


               police and USAID will handover accommodation, office and communication
               facilities that were part of the road construction

In addition, the mission recognizes that inefficient border operations hinder efficient trade,
one of the main anticipated benefits from JN road construction. During development of
USAID‟s transition strategy, USAID considered the importance of border operations, and in
consultation with other Donors and the GOSS, it was decided that DFID would take on the
lead role in this area. However, the mission has implemented several border related activities
in support of these efforts. This included a Mission funded a Corridor Diagnostic Study
aimed at improving capacity and operational efficiencies along the “Northern Corridor” route
that carries traffic and freight along Mombasa-Nairobi-Kampala-Juba corridor. The project
is aimed at harmonizing transport regulations and border crossing processes throughout the
East African Region. The Mission also funded a time and cost study in partnership with the
Ministry of Finance that highlighted the numerous official and unofficial tolls collected along
the road.

Path to Resolution: During the next portfolio review, currently scheduled for July 2012,
review / discussion of the following issues will be completed:

o Possibilities for „institutionalizing‟ time-cost studies for border operations in partnership
  with the Ministry of Finance.
o Progress of DFID supported programs in improving border operations; and possibilities /
  needs for complimentary USAID support.
o Status of DOJ efforts to establish a functioning JN highway patrol unit, and areas for
  future collaboration/support.
o Continued Road Safety messaging and support to be provided through USAID‟s
  agreement with UNOPS.

In consideration of the aforementioned paths to resolution, Mission management requests the
RIG‟s concurrence that management decision has been reached.




                                                                                             27
                                                        Appendix III


Map of the Juba-Nimule Road Showing Sections, Camps, and Bridges




Source: USAID/South Sudan.

                                                                 28
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
